No. 20-1156
IN THE

Supreme Court of the United States
_________

ALAN H. OLEFSKY,
v.

Petitioner,

ILLINOIS DEPARTMENT OF FINANCIAL AND
PROFESSIONAL REGULATION, AND CECILIA ABUNDIS,
DIRECTOR OF THE DIVISION OF PROFESSIONAL
REGULATION OF THE ILLINOIS DEPARTMENT OF
FINANCIAL AND PROFESSIONAL REGULATION,
Respondents.

_________

On Writ of Certiorari to the
Illinois Supreme Court

_________

PETITION FOR REHEARING

_________

TIMOTHY J. BINGHAM
LILLIAN S. WALANKA
CRICK WALANKA LAW
GROUP, LTD.
111 W. Washington St.,
Suite 1820
Chicago, IL 60602

MICHAEL K. GOLDBERG*
ROBERT BAUERSCHMIDT
GOLDBERG LAW GROUP
120 S. Riverside Plaza,
Suite 1675
Chicago, IL 60606
(312) 930-5600
mgoldberg@
goldberglawoffice.com
*Counsel of Record

QUESTIONS PRESENTED
1. Whether the IDFPR’s Final Order indefinitely
suspending Petitioner’s medical license for two
years pursuant to the first order on remand, or
one year pursuant to the second order on
remand, was an abuse of discretion when the
discipline is overly harsh in light of mitigating
circumstances and a violation of Petitioner’s
due process rights when compared to past
discipline for similar facts?
2. Whether federal and state courts reviewing
administrative decisions should be allowed to
reference and consider past administrative
decisions from the agency being reviewed if the
past

decisions

were

not

part

of

the

administrative record?
3. Whether the recent decision made on March 4,
2021, by Judge Hall of the Cook County Circuit
i

Court,

has

changed

the

standard

for

administrative review in Illinois to the extent
that this case warrants the United States
Supreme Court accepting the previously denied
Petition for Writ of Certiorari?

ii

PETITION FOR REHEARING
Pursuant

to

Supreme

Court

Rule

44.1,

Petitioner, Alan Olefsky, M.D., respectfully petitions
for rehearing of the Court’s denial of Petitioner’s
Petition for Writ of Certiorari, which was denied by
this Court on April 26, 2021. Petitioner moves this
Court to grant this petition for rehearing and consider
his case which merits briefing and oral argument.
Pursuant to Supreme Court Rule 44.1, this petition for
rehearing is filed within 25 days of this Court’s
decision in this case.

REASONS FOR GRANTING THE PETITION
On

April

26,

2021,

this

Court

denied

Petitioner’s Petition for Writ of Certiorari, which was
filed on February 15, 2021. While this Court was
reviewing Petitioner’s Petition, the Circuit Court of
Cook County, in Illinois, issued a ruling that
1

necessitates a rehearing of Petitioner’s Petition. In
quick summation, Petitioner’s Petition for Writ of
Certiorari asked this Court to review and remand the
Illinois Supreme Court’s decision to deny Petitioner’s
Petition for Leave to Appeal because lower courts in
Illinois, and across multiple states, are in a constant
disagreement

over

the

appropriate

amount

of

deference to give administrative agencies and the
appropriate use of past administrative decisions in
reviewing sanctions issued by such agencies. These
ongoing inconsistencies leave Illinois courts without
clear direction when assessing whether an agencyimposed

disciplinary

sanction

is

an

abuse

of

discretion. Petitioner is a physician and surgeon in
Illinois whose medical license was indefinitely
suspended1 because he allegedly failed to report past

Initially for a minimum period of three (3) years; the lower
Illinois courts have over time remanded the matter resulting in
a one-year indefinite suspension. The current suspension is for
1

2

disciplinary

action

by

the

Drug

Enforcement

Administration on his license renewals to the Illinois
Department of Financial and Professional Regulation
(“Department”). After three (3) different complaints
for administrative review in this matter, the Illinois
Appellate Court, First District, held that past
administrative decisions, which are not published,
cannot be used by a reviewing court to determine if a
sanction is arbitrary and capricious or otherwise an
abuse

of

discretion.

Furthermore,

the

Illinois

Appellate Court held that all past decisions must be
brought up first in the administrative record,
although they do not specify at which point in the
administrative record is appropriate. The Appellate
Court decision included a concurrence by Judge
Delort, who wrote that past administrative decisions

a minimum of two (2) years based on the ruling of the Illinois
Appellate Court in favor of a cross-appeal by the Respondents.

3

are accessible by the public and should be used by
reviewing courts in determining the appropriateness
of sanctions. The question still exists; must past
administrative cases be part of the administrative
record

if

they

are

to

be

considered

in

an

administrative review?
In support of this petition for rehearing, the
Circuit Court of Cook County’s March 4, 2021 decision
is an important intervening decision that further
supports Petitioner’s argument. The Circuit Court
reversed and remanded an Illinois Department of
Financial

and

Professional

Regulation

decision

because the court found that the Department’s actions
violated their own rules. Nwaokocha v. IDFPR and
Cecilia Abundis, 20 CH 02888.2 In Nwaokocha, Judge

It is important to note that while this case has the same name
as an Illinois Appellate Court case previously cited by Petitioner
in his Petition for Writ of Certiorari, this is a different matter
involving the same plaintiff.
2

4

Hall, who was also the Circuit Court judge in
Petitioner’s case, reviewed a Motion to Dismiss that
had been granted at the administrative level to
dismiss the plaintiff’s Petition for Termination of
Suspension of License. The Department filed their
Motion to Dismiss based on the argument that
plaintiff’s Petition for Termination of Suspension of
License failed to comply with the requirements of
Department Rule 1285.130 of the Administrative
Code. While Rule 1285.130, on its face, only applies to
expired or inactive licenses, the administrative law
judge interpreted the rule to include suspensions,
reasoning it would have been part of the legislative
intent to include suspensions. The Director of the
Department agreed with the administrative law judge
and issued an Order dismissing the Petition on
February 28, 2020.

5

Judge Hall found that the Department erred
because “consideration of the intent of the legislature
is not necessary where the plain and ordinary
meaning of its language expresses its intent.” Judge
Hall

found

that

the

Department’s

behavior,

dismissing a petition based on an incorrect reading of
their own rules, was not allowed and was not
appropriate. It is important to point out that while the
standard of review in Nwaokocha carried less
deference than the standard used in Petitioner’s case,
because one was a question of law and one was
evaluating the manifest weight of the evidence, this is
still a pivotal moment in administrative review in
Illinois. Circuit Court judges rarely reverse and
remand

the

Department’s

actions,

even

when

presented with rules, laws, or case law that shows the
Department is acting inappropriately. The fact that it
is the same judge that previously ruled in favor of the

6

Department in Petitioner’s case makes the ruling
even more important and is evidence that this Court
should reverse and remand the Illinois Appellate
Court’s decision in light of the change in deference in
Illinois review cases.
Judge Hall’s decision follows closely after the
January 1, 2021 change to the Illinois Appellate Court
and Illinois Supreme Court Rule 23. Under the
previous Rule 23, litigants could not cite unpublished
Illinois Appellate Court rulings, but with the
increased availability of those cases due to electronic
databases, the cases can now be cited as persuasive
authority.
Petitioner argued, in his Petition for Writ of
Certiorari, that the Department has been too rigid
with their reading of another administrative rule. For
the first time in the long judicial history of this case,
involving numerous remands, the Cook County

7

Circuit Court and the Illinois Appellate Court, First
District, both determined they could not review
administrative decisions that are not referenced as
part of a published Appellate Court case or within the
administrative record, as defined in Section 10-35 of
the Illinois Administrative Procedure Act. It is
regarding

Section

10-35,

and

whether

past

administrative cases must be in the record, where
Justice Delort authored his concurring opinion in the
Illinois Appellate Court decision in this case. Justice
Delort went on to state: “I do not agree there should
be a hard-and-fast rule prohibiting a court from
considering an agency decision if it was not cited
before the agency itself.”3 Section 10-35 does not
discuss case law or past administrative cases, yet the
lower courts all found that such cases needed to be

Olefsky v. IDFPR and Jessica Baer, 2020 IL App (1st) 191059U, 20.
3

8

part of the record if they are to be referenced on
administrative review. The plain reading of this rule,
similar to how Judge Hall read Rule 1285.130, does
not state in plain and ordinary language what the
courts have interpreted it includes. Therefore, if this
matter were to be remanded to the lower courts again,
a persuasive argument could be made that Judge
Hall’s recent ruling supports a reading of Section 1035 in favor of Petitioner. It is well-settled that case law
can be brought up at any point during an appeal. By
citing to comparable administrative cases involving
other physicians, Petitioner is not presenting new
facts of his case outside of the record on review.
Petitioner is citing to comparable cases the same way
a Petitioner would cite to relevant case law in a civil
case. The new ruling, which came down while
Petitioner’s Petition for Writ of Certiorari was
pending, gives support to this petition for rehearing

9

and this Court should now take the opportunity to
grant the Petition for Writ of Certiorari and reverse
and remand the lower court’s order.

CONCLUSION
For

the

foregoing

reasons,

Petitioner

respectfully requests that this Court grant the
petition for rehearing and order full briefing and
argument on the merits of this case.
Respectfully submitted,

TIMOTHY J. BINGHAM
LILLIAN S. WALANKA
CRICK WALANKA LAW
GROUP, LTD.
111 W. Washington St.,
Suite 1820
Chicago, IL 60602

MICHAELK. GOLDBERG*
ROBERT A.BAUERSCHMIDT
GOLDBERG LAW GROUP
120 S. Riverside Plaza,
Suite 1675
Chicago, IL 60606
(312) 930-5600
mgoldberg@
goldberglawoffice.com
*Counsel of Record

10

